No. 19-431

In the Supreme Court of the United States

LITTLE SISTERS OF THE POOR SAINTS PETER AND PAUL HOME,
Petitioner,
v.
COMMONWEALTH OF PENNSYLVANIA AND
STATE OF NEW JERSEY,
Respondents.

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

BRIEF IN OPPOSITION
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the brief in opposition
contains 7,615 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 9, 2019.
/s/ Michael J. Fischer
Michael J. Fischer, Counsel of Record
Chief Deputy Attorney General
Office of Attorney General
1600 Arch Street, Suite 300
Philadelphia, PA 19103
(215) 560-2171
mfischer@attorneygeneral.gov
Counsel for Respondents

